No. 20-6383
In The Supreme Court Of The United States
VINCENT MCFADDEN,
Petitioner,
v.
STATE OF MISSOURI,

Respondent.

 

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF MISSOURI

 

CERTIFICATE OF SERVICE

 

I hereby certify that Reply in Support of Petition for Writ of Certiorari and Certificate of
Service were served via FedEx, on this 2nd day of February 2021 upon Shaun J. Mackelprang,
Assistant Attorney General, P.O. Box 899, Jefferson City, MO 65102. All persons required to be

served have been served.

  

  

*aurence E. Komp

Capital Habeas Unit, Chigf

Federal Public Defender\
‘Western District of Missouri
1000 Walnut, Suite 600
Kansas City, MO 64106
Laurence_Komp@fd.org
(816) 471-8282

*Counsel of Record

Counsel for Petitioner
